FOR IMMEDIATE RELEASE                                                      April 22, 2013
Media Contact: 202-565-3908


  COLOMBIAN BUSINESSMAN SENTENCED FOR SCHEME TO DEFRAUD
                THE U.S. EXPORT-IMPORT BANK

WASHINGTON – The Office of Inspector General (OIG) for the Export-Import Bank of
the United States (Ex-Im Bank) announced today that the owner of a trade finance
consulting company in Miami, Florida and Barranquilla, Colombia, South America, was
sentenced on Friday April 19, 2013 to serve 30 months in prison for his role in a scheme
to defraud the Export-Import Bank of the United States (Ex-Im Bank) of approximately
$8,100,000.

Juan Carlos Schwartzman, 49, was sentenced by Judge Reginald Walton in the U.S.
District Court, Washington, D.C. Schwartzman pleaded guilty on July 8, 2011 to one
count of conspiracy to commit mail fraud and wire fraud in connection with the scheme
to defraud the Ex-Im Bank. In addition to his prison term, Schwartzman was sentenced
to serve 36 months of supervised release and was ordered to pay $10,179,334.69 in
restitution and $8,162,582 in forfeiture.

According to court documents, Schwartzman, a Colombian citizen with permanent
residency status in the United States, resided in Florida and owned J.C. Schwartzman &
Associates, a trade finance consulting firm used to assist several Colombian buyers
obtain lender financing guaranteed by Ex-Im Bank. Schwartzman admitted that from
March 2005 through October 2007, he and other co-conspirators devised a scheme to
unlawfully enrich themselves by submitting and/or causing the submission of fraudulent
information to the Ex-Im Bank, through lending banks and U.S. exporters, in order to
obtain and misappropriate loan proceeds. Schwartzman admitted that he and others
prepared and submitted false applications, false financial statements, and invoices and
shipping records which falsely reflected that goods were purchased and shipped to buyers
in Colombia. Schwartzman admitted that he and others distributed the difference in the
loan amounts and the purchase price of less valuable goods than were actually purchased
and shipped between themselves and others. Schwartzman further admitted that he and
others transferred the money by wire between and among their bank accounts to disguise
the nature, source and purpose of the monies, and they allowed the loans to default,
triggering Ex-Im Bank’s obligation to cover the debts. As a result of the defaulted loans,
Ex-Im Bank paid the lenders or loan assignees for the defaulted amounts of $8,503,567.

The case was prosecuted the Criminal Division’s Fraud Section, Department of Justice.
The case was investigated by the Ex-Im Bank Office of Inspector General and the U.S.
Postal Inspection Service in Washington, D.C.



                   811 Vermont Avenue, NW Washington, D.C. 20571
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional information
about the OIG can be found at www.exim.gov/oig. Complaints and reports of waste,
fraud, and abuse related to Ex-Im Bank programs and operations can be reported to the
OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.

                                         ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
